HHS/OIG, Audit -"State of Illinois' Efforts to Account for and Monitor Sub-Recipients' Use of Public Health Preparedness and Response to Bioterrorism Program Funds, Illinois Department of Public Health,"(A-05-03-00082)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"State of Illinois' Efforts to Account for and Monitor Sub-Recipients' Use of Public Health Preparedness and Response
to Bioterrorism Program Funds, Illinois Department of Public Health," (A-05-03-00082)
October 31, 2003
Complete Text of Report is available in PDF format
(129 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether the Illinois Department of Public Health (State agency): (i) properly recorded,
summarized and reported bioterrorism preparedness transactions by specific focus areas designated in the cooperative agreements
and (ii) whether the State agency had controls and procedures to monitor sub-recipient expenditures of Centers for Disease
Control and Prevention funds.  We found that the State agency generally accounted for program funds by specific focus
area.  In response to our inquiry as to whether the State agency reduced funding to existing public health programs,
State officials replied that Program funding had not been used to supplant existing State or local programs.  We recommended
the State agency continue to comply with the terms and conditions of the cooperative agreements.  The State agency
concurred with our findings and recommendation.